                                          Office of Inspector General
                                          U.S. Small Business Administration


                                                                                         April 2011 Update



  Business Loan Programs                                              levels and guidelines for monitoring onsite productivity
                                                                      and adjusting staffing levels in a timely manner.
  Korean National Indicted
  On April 8, 2011, a Korean national was indicted in the             Mississippi Couple Indicted
  District of New Jersey on one count of conspiracy to                On April 19, 2011, a federal grand jury in the Southern
  commit bank fraud. The investigation disclosed that an              District of Mississippi returned a seven count indictment
  organized group of Korean nationals were obtaining                  against a couple for fraudulently obtaining $1 million in
  credit cards and loans from various lending institutions            Hurricane Katrina disaster assistance. Each was charged
  using false identities, documents, and business names.              with one count of conspiracy, five counts of wire fraud,
  The indictment alleges that the subject obtained a                  and one count of theft of government funds. The couple
  $100,000 loan from a bank and a $50,000 SBAExpress                  received a $1 million disaster loan to repair business
  loan from another bank for a nail salon using the identity          properties damaged by Hurricane Katrina. It is alleged
  and financial information of another business. This is a            that they did not use the loan proceeds as provided in the
  joint investigation with the Internal Revenue Service–              Loan Authorization Agreement, submitted fraudulent
  Criminal Investigations Division, the Federal Bureau of             receipts to the SBA, and used $389,923 of the loan
  Investigation (FBI), the Englewood New Jersey Police                proceeds to the purchase a 43-foot yacht. This
  Department, and the Bergen County Prosecutors Office.               indictment resulted from a joint proactive investigation
                                                                      by the National Center for Disaster Fraud targeting
  Disaster Loans                                                      individuals making false claims for government disaster
                                                                      assistance and is being conducted jointly with the FBI.
  SBA’s Response to the Deepwater Horizon Oil Spill
  On April 7, 2011, the OIG issued a report on a review of            Mississippi Homeowner Charged
  the SBA’s response to the deepwater horizon oil spill.              On April 27, 2011, a homeowner was charged via
  The purpose of the review was to determine whether the              criminal Information in the Southern District of
  SBA’s disaster response was most cost effective and                 Mississippi with one count of theft of public money. The
  targeted toward the needs of those concerned.                       charge alleges that the subject fraudulently represented
                                                                      the location of his primary residence when applying for
  In response to the disaster, the Agency made extensive              Hurricane Katrina disaster assistance from the SBA, the
  outreach efforts to businesses impacted by the disaster             U.S. Department of Housing and Urban Development
  and maintained Business Recovery Centers (BRCs) in                  (HUD), the Federal Emergency Management Agency
  affected locations for several months. The OIG found                and both Louisiana and Mississippi State Grant
  that SBA’s disaster response could have been provided at            programs. The subject was approved for an SBA loan of
  a lower cost by reducing the number of BRCs, or staff at            $88,800, of which $10,000 was disbursed. This is a joint
  BRCs, or both. According to the Office of Disaster                  investigation with the HUD OIG, the Department of
  Assistance’s Daily Field Activity Report, SBA                       Homeland Security (DHS) OIG, and the Mississippi
  employees appeared to experience a significant amount               State Grant Authority.
  of idle time during the period of our review. We
  estimated the salaries and travel expense relating to the           Government Contracting & Business
  idle time totaled approximately $2.5 million based on               Development
  reported costs for the BRCs during May through August
  2010. The OIG recommended that the SBA develop                      New Mexico Man Pleads Guilty
  (1) written procedures to establish performance metrics             On April 7, 2011, the owner of a fence and construction
  to assess workload and (2) appropriate onsite staffing              company in Ruidoso Downs, New Mexico, pled guilty in


Monthly Update on Activities of the SBA Office of Inspector General
U.S. District Court for the District of New Mexico, to an             Alabama Computer Sales Company Owner Indicted
Information charging him with accessory after the fact,               On April 25, 2011, in U.S. District Court for the
related to intent to convert to his use or gain public                Northern District of Alabama, the owner of a computer
money, property, or records. The company had bid on                   sales company was indicted on two counts of
and was selected for a project to build a road for the U.S.           misrepresentation. The indictment alleges that the
Forest Service. The project was an SBA set-aside                      subject falsely obtained an SBA HUBZone certification
contract for Historically Underutilized Business Zone                 because the company’s principal office was not located
(HUBZone) businesses. The Forest Service selected the                 within a HUBZone, nor did 35 percent of its employees
company for this project; however, the company was not                reside within a HUBZone, as required by program
HUBZone certified, and when the Forest Service                        regulations. As a result of the subject’s representations
requested a copy of the company’s HUBZone                             to the SBA, the company was awarded 28 federal
certification, a company employee obtained another                    contracts from 2006 to 2009, valued at $2,565,692,
company's HUBZone certification, altered it to make it                which the company would not have been eligible to
appear authentic, and sent the false certification to the             receive if it did not have HUBZone status. This is a joint
Forest Service. The investigation disclosed that the                  investigation with the U.S. Army Criminal Investigation
business owner knew about the false certification and did             Division and the Defense Criminal Investigative Service.
not report it to the authorities but, rather, encouraged the
employee to press forward in order to obtain the contract.            Agency Management
The owner was sentenced to 48 hours incarceration, a
$10,000 fine, and one year supervised release. This is a
                                                                      Review of the SBA’s Accounting of FY 2010 Drug
joint investigation with the FBI.
                                                                      Control Funds and Performance Summary Report
                                                                      On April 18, 2011, the OIG issued a report on SBA’s
Design Company Owner Pleads Guilty
                                                                      accounting of drug control funds and performance
On April 18, 2011, the owner of a design company pled
                                                                      summary report for the year ended September 30, 2010,
guilty to one count of conspiracy and one count of false
                                                                      as required by 21 U.S.C § 1704(d). Agencies are
claims. The subject, who owns an 8(a) certified
                                                                      required by the Office of National Drug Control Policy
design/remodeling business, conspired to submit falsified
                                                                      (ONDCP) Circular, Drug Control Accounting, to
information to the U.S. General Services Administration
                                                                      annually provide a detailed accounting of all funds
(GSA) in the course of obtaining an 8(a) contract with
                                                                      expended on National Drug Control Program activities
the DHS, Immigration and Customs Enforcement (ICE).
                                                                      and the results associated with those activities. When
As a result of the conspiracy, ICE suffered a loss of
                                                                      drug-related obligations are less than $50 million and a
$389,738. This is a joint investigation with DHS ICE,
                                                                      detailed accounting would constitute an unreasonable
GSA OIG, and the Department of Justice Antitrust
                                                                      burden, agencies are permitted to submit an alternative
Division.
                                                                      report, as long as it is accompanied by Agency and OIG
                                                                      statements.
Construction Company Owner Found Guilty
On April 20, 2011, in the Southern District of New York,
                                                                      Because SBA’s FY 2010 drug-related obligations were
the president and Chief Executive Officer of a
                                                                      less than $50 million, SBA submitted an alternative
construction company was found guilty of all six counts
                                                                      report for the year ended September 30, 2010. Nothing
against him following a jury trial. The subject was found
                                                                      came to the OIG’s attention during a review of this
guilty of one count of mail fraud, three counts of major
                                                                      alternative report that would indicate it was not
fraud against the United States, one count of false
                                                                      presented, in all material respects, in conformity with
statements and one count of tampering with a victim,
                                                                      ONDCP’s Circular, or that management’s assertions
witness or an informant. The charges relate to the
                                                                      were not fairly stated, in all material respects, based on
company falsely claiming status as a Service-Disabled
                                                                      the criteria set forth in ONDCP’s Circular, Drug Control
Veteran-Owned (SDVO) business. The company was
                                                                      Accounting.
awarded one Veteran-Owned set-aside contract in the
amount of $5,698,000 and three SDVO set-aside
contracts totaling $10,980,690. The evidence gathered
revealed that the owner is neither a veteran nor a service-
disabled veteran. This is a joint investigation with the
Department of Veterans Affairs and the Department of
Army, Criminal Investigations Division.




Update on the Activities of the SBA Office of Inspector General   2                                        April 2011
         This update is produced by the SBA OIG,
          Peggy E. Gustafson, Inspector General.

The OIG has established an e-mail address, oig@sba.gov
that we encourage the public to use to communicate with
our office. We welcome your comments concerning this
  update or other OIG publications. To obtain copies of
             these documents please contact:

                        SBA OIG
              409 Third Street SW., 7th Floor
                  Washington, DC 20416
                   E-mail: oig@sba.gov
             Telephone number (202) 205-6586
               FAX number (202) 205-7382

  Many OIG reports can be found on the OIG’s website

      http://www.sba.gov/office-of-inspector-general

     If you are aware of suspected waste, fraud, or
  abuse in any SBA program, please report it online at:

  http://www.sba.gov/office-of-inspector-general/2662

   Or call the OIG Hotline toll-free at (800) 767-0385




Update on the Activities of the SBA Office of Inspector General   3   April 2011
